1a
948 F.3d 722
United States Court of Appeals, Sixth Circuit.
UNITED STATES of America, Plaintiff-Appellant,
v.
Andrew DEMMA, Defendant-Appellee.
No. 18-4143
|
Argued: December 12, 2019
|
Decided and Filed: January 24, 2020.
Appeal from the United States District Court for
the Southern District of Ohio at Dayton. No. 3:17-cr00062-1—Walter H. Rice, District Judge.
Attorneys and Law Firms
ARGUED: Mary B. Young, UNITED STATES ATTORNEY’S OFFICE, Columbus, Ohio, for Appellant.
Richard E. Mayhall, RICHARD E. MAYHALL, Springﬁeld, Ohio, for Appellee. ON BRIEF: Mary B. Young,
UNITED STATES ATTORNEY’S OFFICE, Columbus,
Ohio, for Appellant. Richard E. Mayhall, RICHARD E.
MAYHALL, Springﬁeld, Ohio, for Appellee.
Before: GILMAN, KETHLEDGE, and READLER, Circuit Judges.
OPINION
RONALD LEE GILMAN, Circuit Judge.
This is yet another case raising the issue of
whether a one-day sentence for a defendant convicted

2a
of possessing child pornography is reasonable. For the
reasons set forth below, we determine that it is not. We
therefore VACATE the sentence imposed by the district court and REMAND the case for resentencing.
I.

BACKGROUND

In February 2015, FBI agents seized a computer
server used to host a child-pornography website. The
website operated through “Tor,” a network designed for
anonymous internet use. Users of Tor must download
special software onto their computers, followed by the
entry of an obscure web address not found on publicly
available search engines, in order to access particular
websites. The users’ IP addresses and locations are
then shielded by Tor from the websites they visit.
Shortly after seizing the server, the FBI began
monitoring the activity of a particular user, “domine21.”
Agents observed domine21 accessing 107 “threads”
containing child pornography over a ﬁve-day period.
The FBI traced the IP address associated with
domine21 to Andrew Demma’s residence in Dayton,
Ohio. In August 2015, the FBI executed a search warrant and seized several electronic devices from the residence, ﬁnding more than 3,600 images and 230 videos
in Demma’s possession. Hundreds of the images depicted adult men raping and otherwise sexually abusing prepubescent girls.
Demma pleaded guilty to possessing child pornography, such possession being in violation of 18 U.S.C.
§ 2252(a)(4)(B) and (b)(2). Under United States

3a
Sentencing Guidelines (U.S.S.G.) § 2G2.2, the baseoffense level for violating the statute is 18. The probation ofﬁcer’s Presentence Report called for enhancements of the base-offense level due to Demma’s
possession of images displaying prepubescent children
(a two-level increase); his possession of images involving sadomasochistic conduct, including images of insertion or intercourse with prepubescent children (a
four-level increase); his use of a computer (a two-level
increase); and the fact that the offense involved 600
or more images (a ﬁve-level increase). Demma’s acceptance of responsibility (a two-level decrease) and
his assistance to authorities (a one-level decrease)
were listed as mitigating factors. Based on the above
calculations, the probation ofﬁcer computed an adjusted offense level of 28. This offense level, together
with Demma’s criminal history category of I, corresponds to a term of imprisonment between 78 and 97
months under U.S.S.G. § 2G2.2. The ofﬁcer recommended a sentence of 78 months’ imprisonment.
Contrary to the probation ofﬁcer’s recommendation, Demma submitted a sentencing memorandum
asking the district court to impose a noncustodial sentence. The memorandum described Demma’s supportive upbringing, educational background, and lack of
criminal history. It also described Demma’s experience
in the Army, where Demma served honorably for over
ﬁve years between 2005 and 2010. Demma, who admits to having been long addicted to adult pornography, said that he was introduced to child pornography

4a
during his second deployment to Iraq. He acknowledged that he continued to view child pornography up
until the FBI searched his home in 2015.
The memorandum also offers an account of
Demma’s experience with post-traumatic stress disorder (PTSD) as a result of his military service. Demma
began seeing Dr. Frederick Peterson, a psychologist at
a nearby Veterans Affairs Hospital, after the FBI
searched Demma’s home. Dr. Peterson diagnosed
Demma with PTSD, and the doctor’s records describe
a range of violent and traumatic episodes during
Demma’s tours of duty in Iraq. At the sentencing hearing, Dr. Peterson expressed his opinion that Demma’s
use of child pornography stemmed from his “objectiﬁcation” of children as a result of combat trauma.
The memorandum further cites Dr. David Tennenbaum, a forensic psychologist who submitted a report
asserting that Demma’s use of child pornography “is
directly resultant from experiencing the ravages of
war as this impacts children, viewing the deaths of
children.” Dr. Tennenbaum, at Demma’s sentencing
hearing, expressed his belief that Demma sought child
pornography in order to “bring pain to himself, to redo
within his mind the pain he experienced in Iraq.”
Finally, Demma offered the testimony of psychologist Dr. David Roush, who runs a sex-offender treatment program in which Demma enrolled following
his arrest. Dr. Roush, contrary to the opinions of Dr.
Peterson and Dr. Tennenbaum, did not believe that
Demma’s use of child pornography was directly caused

5a
by Demma’s service in Iraq. He was instead of the opinion that Demma was already attracted to minors and
simply happened to be in Iraq when he became exposed to child pornography.
The government submitted its own sentencing
memorandum, arguing that the factors outlined in 18
U.S.C. § 3553(a) supported the imposition of a custodial sentence on Demma. Highlighting the sophistication of Demma’s access to the pornography, as well as
the large number of images of “prepubescent children
being anally and vaginally penetrated by adult males,”
the government emphasized the need for just punishment and the sentencing goal of providing deterrence.
The government also contended that Demma could
successfully continue his treatment in the Bureau of
Prisons Residential Sex Offender Treatment Program
and the Sex Offender Management Program during incarceration.
After hearing from Demma, his parents, and his
treating psychologists, as well as considering several
victim statements read into evidence, the district court
rejected the sentence recommended by the Sentencing
Guidelines. It instead sentenced Demma to only one
day for time already served. The court also required
Demma to undergo 10 years of supervised release and
pay $45,000 in total restitution to nine identiﬁed victims.
In declining to impose a custodial sentence, the
district court articulated its disagreement with the
Sentencing Guidelines on policy grounds, explaining

6a
that “the guidelines, while certainly they’re a starting
point and they do achieve a certain amount of consistency,” are “artiﬁcially high because everyone secures most of the enhancements.” It further explained
that the Guidelines made it difﬁcult to distinguish between offenders.
The district court also cited the need to impose a
sentence reﬂecting Demma’s individualized characteristics, noting that “Mr. Demma, because of his experiences, is to be treated differently than someone who
simply allowed his curiosity to get the better of him.”
In particular, the court focused on Demma’s PTSD diagnosis. The court, pointing to the reports of the three
psychologists, commented that “very few people come
home from a combat situation without suffering lasting damage.” It relied most heavily on Dr. Tennenbaum’s testimony that Demma’s experience in Iraq
was “the direct cause of his involvement with child pornography.” In light of the doctors’ opinions, the court
determined that Demma “wound up in criminal court
as an unintended consequence” of his voluntary service
in the Army.
The district court nevertheless noted the impact of
Demma’s crime on his victims, explaining that the possession of child pornography is “an offense that has no
ﬁnite ending.” It also discussed the role of such possession in creating a market for the production and distribution of child pornography, and it described the
number of images possessed by Demma as “if not the
highest the Court has ever seen in a possession of child
pornography [case], certainly not the lowest either.”

7a
Other considerations, however, carried greater weight
in the court’s analysis.
The district court speciﬁcally discussed Demma’s
decision to voluntarily seek out treatment after he was
arrested, his low risk of reoffending, and the potentially detrimental effect of a prison sentence on
Demma’s treatment, as articulated by Dr. Peterson and
Dr. Roush. It also considered Demma’s low risk for
committing a “contact offense,” an inquiry that the
court called the “overarching question” to be answered
prior to sentencing. Discussing general deterrence, the
court noted that, while it “recognize[d] the need to consider general deterrence, there are certain types of
crimes, this being one of them, for which general deterrence is . . . more myth than reality.”
The government timely appealed, arguing that the
one-day sentence was substantively unreasonable under 18 U.S.C. § 3553(a). We now turn to the merits of
the government’s argument.
II.

ANALYSIS

A. Standard of review
The federal Sentencing Guidelines are no longer
mandatory after the Supreme Court’s decision in
United States v. Booker, 543 U.S. 220, 125 S.Ct. 738,
160 L.Ed.2 621 (2005). “[T]hey still,” however, “ ‘should
be the starting point and the initial benchmark’ for
choosing a defendant’s sentence.” United States v.
Bistline, 665 F.3d 758, 761 (6th Cir. 2012) (Bistline I)

8a
(quoting Gall v. United States, 552 U.S. 38, 49, 128 S.Ct.
586, 569 L.Ed.2 445 (2007)). The district court must
calculate the range prescribed by the Guidelines before
varying from them. Gall, 552 U.S. at 49, 128 S.Ct. 586.
And, after allowing the parties to argue for a particular
sentence, the district court must weigh and apply the
range of factors outlined in 18 U.S.C. § 3553(a). Id. at
49–50, 128 S.Ct. 586.
A sentence may be vacated on appeal if it is substantively unreasonable—that is, where the “sentence
is too long . . . or too short.” United States v. Parrish,
915 F.3d 1043, 1047 (6th Cir. 2019), cert. denied, ___
U.S. ___, 140 S. Ct. 44, 205 L.Ed.2d 150 (2019) (quoting
United States v. Rayyan, 885 F.3d 436, 442 (6th Cir.
2018)). This inquiry requires us to determine whether
“the court placed too much weight on some of the
§ 3553(a) factors and too little on others.” Rayyan, 885
F.3d at 442. We thus “take into account the totality of
the circumstances,” Gall, 552 U.S. at 51, 128 S.Ct. 586,
in applying this “deferential abuse-of-discretion standard,” United States v. Reilly, 662 F.3d 754, 761 (6th Cir.
2011). We may also “consider the extent of the deviation” in deciding whether the district court abused its
discretion. Gall, 552 U.S. at 51, 128 S.Ct. 586.
True enough, the Supreme Court has acknowledged that “courts may vary [from federal Guidelines
ranges] based solely on policy considerations, including
disagreements with the [Guidelines].” Kimbrough v.
United States, 552 U.S. 85, 101, 128 S.Ct. 558, 169
L.Ed.2d 481 (2007) (citation and internal quotation
marks omitted). But district courts in this circuit

9a
seeking to reject U.S.S.G. § 2G2.2 on policy grounds
face “close scrutiny.” Bistline I, 665 F.3d at 763. As this
court has explained regarding § 2G2.2: “[W]hen a
guideline comes bristling with Congress’s own empirical and value judgments—or even just value judgments—the district court that seeks to disagree with
the guideline on policy grounds faces a considerably
more formidable task than the district court did in
Kimbrough [which dealt with crack-cocaine guidelines
that, unlike § 2G2.2, were not implicitly attributed to
Congress].” Id. at 763–64.
B. Disagreement with the Guidelines
Demma, however, argues that the district court
adequately explained its disagreement with the Guidelines on policy grounds and that its variance is justiﬁed
on this basis. We respectfully disagree. This court has
explained that, to reject U.S.S.G. § 2G2.2 on policy
grounds, a district court must consider the values of
punishment and retribution. Bistline I, 665 F.3d at
764.
In relevant part, U.S.S.G. § 2G2.2 provides as follows:
(a)

Base Offense Level:
(1) 18, if the defendant is convicted of 18
U.S.C. § 1466A(b), § 2252(a)(4), § 2252A(a)(5),
or § 2252A(a)(7).
....

10a
(b)

Speciﬁc Offense Characteristics
....
(2) If the material involved a prepubescent
minor or a minor who had not attained the
age of 12 years, increase by 2 levels.
....
(4) If the offense involved material that portrays (A) sadistic or masochistic conduct or
other depictions of violence; or (B) sexual
abuse or exploitation of an infant or toddler,
increase by 4 levels.
....
(6) If the offense involved the use of a computer or an interactive computer service for
the possession, transmission, receipt, or distribution of the material, or for accessing with
intent to view the material, increase by 2 levels.
(7)

If the offense involved –

....
(D)

600 or more images, increase by 5 levels.

In United States v. Bistline, 720 F.3d 631 (6th Cir.
2013) (Bistline II), the district court had rejected
U.S.S.G. § 2G2.2 for reasons similar to those stated by
the district court in the present case. The district court
in Bistline II had expressed “a continued disagreement
with the range of sentences that result under these
guidelines in the average case,” pointing out that
“every case” involved computer use and “almost every
case” involved a large number of images. Id. at 633.

11a
The district court below likewise noted that “everyone”
who is brought into federal court for possessing child
pornography receives the same enhancements, which,
the court claimed, makes it impossible to distinguish
between individual defendants.
This court in Bistline II concluded that such reasoning does not withstand close scrutiny. Id. It explained that the policy underpinnings of § 2G2.2 “were
not only empirical, but retributive—that they included
not only deterrence, but punishment.” Id. at 633 (quoting Bistline I, 665 F.3d at 764). Because the district
court in Bistline II “did not acknowledge, much less refute, those bases for [the defendant’s] guidelines
range,” its out-of-hand rejection of § 2G2.2 on policy
grounds was not adequately explained. Id. The district
court here, like the court in Bistline II, did not discuss
the retributive purposes of § 2G2.2 in rejecting the offense-level increases recommended under the Guidelines, and its disagreement with the Guidelines cannot
justify its decision to ignore the delineated enhancements.
Moreover, as in Bistline II, the district court’s disagreement with the Guideline enhancements on policy
grounds cannot justify its failure to impose what is essentially no custodial sentence at all. Demma would
have scored an offense level of 15 even with none of the
enhancements that the district court said made it “impossible” to distinguish between defendants (his base
offense level of 18 less the 3-level recommended decrease). Such a stripped-down offense level (which is
clearly inapplicable based on the facts of this case)

12a
would still have produced a Guidelines range of 18 to
24 months of imprisonment. U.S.S.G. ch. 5, pt. A. So
any policy disagreement with the Guidelines based on
the alleged similarity of the enhancements does not
justify the extent of the downward variance in the present case.
C. Substantive reasonableness
We now turn to the issue of substantive reasonableness. The substantive-reasonableness standard recognizes that district-court judges can vary from the
Guidelines range. But the discretion to vary from the
Guidelines requires the district court to justify the variance. In particular, the reduced sentence must reﬂect,
expressly or impliedly, a proper consideration of the
factors set forth in 18 U.S.C. § 3553(a). See United
States v. Rayyan, 885 F.3d 436, 442 (6th Cir. 2018)
(“The point is not that the district court failed to consider a factor or considered an inappropriate factor. . . .
It’s a complaint that the court placed too much weight
on some of the § 3553(a) factors and too little on others
in sentencing the individual.”); see also United States
v. Boucher, 937 F.3d 702, 707 (6th Cir. 2019) (“A substantive reasonableness challenge is not defeated by a
showing of procedural reasonableness—for example,
by conﬁrming that the district court addressed each
relevant factor under 18 U.S.C. § 3553(a), or even that
it discussed those factors at length.”). Here, the district
court did not comply with its obligations under 18
U.S.C. § 3553(a).

13a
The relevant § 3553(a) factors are the following:
(1) the nature and circumstances of the offense
and the history and characteristics of the defendant;
(2)

the need for the sentence imposed—
(A) to reﬂect the seriousness of the offense,
to promote respect for the law, and to provide
just punishment for the offense;
(B) to afford adequate deterrence to criminal conduct;
(C) to protect the public from further crimes
of the defendant; and
(D) to provide the defendant with needed
educational or vocational training, medical
care, or other correctional treatment in the
most effective manner;

(3)

the kinds of sentences available;

(4) the kinds of sentence and the sentencing
range established for—
(A) the applicable category of offense committed by the applicable category of defendant
as set forth in the guidelines—
(i) issued
sion. . . .
(5)

by

the

Sentencing

Commis-

any pertinent policy statement—
(A) issued by the Sentencing Commission. . . .

14a
(6) the need to avoid unwarranted sentence disparities among defendants with similar records
who have been found guilty of similar conduct; and
(7) the need to provide restitution to any victims
of the offense.
1. Factors given excess weight
At the sentencing hearing, the district court focused
almost entirely on Demma’s individual characteristics
in deciding not to impose a term of incarceration. It
relied, in particular, on the testimony of Dr. Peterson
and Dr. Tennenbaum, both of whom opined that
Demma’s use of child pornography was directly
caused by his service in the military and his resulting
PTSD.
To be sure, the district court did not err by recognizing Demma’s military service and PTSD diagnosis
under § 3553(a)(1) as considerations relevant to his
sentence. See United States v. Reilly, 662 F.3d 754, 760
(6th Cir. 2011) (explaining that the defendant’s military service and lack of criminal history were “permissible considerations in the ‘variance’ determination
under 18 U.S.C. § 3553(a)”). But the court in the present case gave these considerations unreasonable
weight in deciding to vary downwards to an essentially
noncustodial sentence.
Indeed, by focusing on Demma’s PTSD diagnosis
to the exclusion of other considerations, the district
court failed to acknowledge analogous cases within
this circuit. In Reilly, for example, the defendant

15a
pleaded guilty to the distribution of child pornography
and then challenged a within-the-Guidelines sentence
of 151 months as substantively unreasonable. Id. at
757. Reilly, like Demma, argued that his violent experiences in combat led to his interest in child pornography. Id. But this court afﬁrmed Reilly’s sentence as
substantively reasonable despite the claimed direct relationship between the defendant’s military service
and his crime. Id. at 761.
In other analogous cases, this court has upheld
custodial sentences for possessors and distributors of
child pornography who have served in the military and
experienced PTSD. See, e.g., United States v. Myers,
442 F. App’x 220, 223–24 (6th Cir. 2011) (afﬁrming a
60-month sentence for possessing child pornography
by a 20-year military veteran); United States v. Tanner,
382 F. App’x 421, 424 (6th Cir. 2010) (afﬁrming a 210month sentence for possessing and distributing child
pornography by a defendant who was a “decorated
combat veteran who suffered from post-traumatic
stress disorder related to his military service”).
Demma’s military service and PTSD diagnosis, in light
of the outcomes in Reilly, Myers, and Tanner, are not
sufﬁcient to justify what amounts to a noncustodial
sentence here.
Moreover, in focusing on the role of Demma’s military service as purportedly causing his crimes, the district court cast Demma more as the victim than the
perpetrator, stating that Demma’s crimes were “the
result of his voluntary service to his community and
his country” and “an unintended consequence” of his

16a
decision to serve in the Army. This court has explained,
however, that “[k]nowing possession of child pornography . . . is not a crime that happens to a defendant.”
Bistline I, 665 F.3d 758, 765 (6th Cir. 2012).
As with any criminal defendant, Demma’s history
and personal experiences have informed his actions.
But he is still a volitional actor, and Demma, as the
government points out, is “not the victim[ ] of the
crime.” See United States v. Christman, 607 F.3d 1110,
1123 (6th Cir. 2010). We speciﬁcally note that there is
no evidence in the record to support the proposition
that military veterans suffering from PTSD typically
become addicted to child pornography. Under the totality of the circumstances, we therefore conclude that
the district court gave an unreasonable amount of
weight to Demma’s PTSD diagnosis in considering the
§ 3553(a) factors.
Nor was § 3553(a)(1) the only factor given excess
weight in the district court’s analysis. The court also
assigned undue weight to § 3553(a)(2)(D), which requires the court to consider the need to provide “correctional treatment in the most effective manner.” In
particular, the court relied on the opinions of Dr. Peterson and Dr. Roush, both of whom believed that incarceration would be detrimental to Demma’s treatment,
in determining that a custodial sentence “would be
more destructive than helpful.” We ﬁnd this reliance
unwarranted in light of Dr. Roush’s opinion that
Demma could successfully continue treatment after a
term of incarceration, and in light of the government’s

17a
point that the prison system itself provides sexoffender treatment. See United States v. Camiscione,
591 F.3d 823, 833 (6th Cir. 2010) (holding that a sentence was substantively unreasonable even where
the district court reasonably considered a defendant’s
“determination and effort to treat his condition and
change his behaviors, consistent attendance and compliance with all treatment programs, [and] participation in ‘[b]ehavioral programs focusing on sexual
disorder’ ”).
2. Factors given insufficient weight
Even if the district court gave reasonable weight
to some of the factors under 18 U.S.C. § 3553(a), this
court has made clear that “the sentence imposed must
do more.” Id. at 833. The district court, for example,
gave sparse attention to the seriousness of Demma’s
offense, as required of it under § 3553(a)(2)(A). The Supreme Court has explained that simple possession of
child pornography, in itself, causes serious and continuing harm to victims as a result of the “trauma of
knowing that images of [their] abuse are being viewed
over and over.” Paroline v. United States, 572 U.S. 434,
449, 134 S.Ct. 1710, 188 L.Ed.2d 714 (2014). This
harm, in turn, may “haunt[ ] the children in years to
come.” Osborne v. Ohio, 495 U.S. 103, 111, 110 S.Ct.
1691, 109 L.Ed.2d 98 (1990). The enhancements delineated in U.S.S.G. § 2G2.2 take into account the ways in
which this harm is magniﬁed.

18a
Noting that Demma’s offense was one without any
“ﬁnite ending,” and after describing the effect of childpornography possession on the market for such images, the district court discussed the seriousness of
child-pornography possession in general. It also described how Demma’s offense was particularly harmful, stating that the number of images was, “if not the
highest the Court has ever seen in a possession of child
pornography [case], certainly not the lowest either.”
But the court did not properly account for other features that made Demma’s crimes particularly serious.
Section 3553(a)(2)(A) requires a more thorough
consideration. See United States v. Robinson, 778 F.3d
515, 519 (6th Cir. 2015) (Robinson II) (vacating a oneday sentence as substantively unreasonable where
the district court did not discuss what made the defendant’s actions “particularly egregious”). Demma’s
Guidelines range was signiﬁcantly enhanced because
the images in his possession depicted extreme, sadomasochistic content, including images of insertion or
intercourse with prepubescent children. But the district court made no mention of this fact. See United
States v. Groenendal, 557 F.3d 419, 426 (6th Cir. 2009)
(holding that “penetration of a prepubescent child by
an adult male constitutes inherently sadistic conduct”). We also note that Demma’s collection of child
pornography, which amounted to more than 3,600 images and 230 videos, far exceeded the amount at issue
in Bistline, where the defendant possessed 305 images
and 56 videos. See Bistline I, 665 F.3d at 760. Yet the
district court in the present case did not explain why a

19a
defendant whose collection was many times larger
than Bistline’s should receive only a one-day sentence.
The district court also unreasonably concluded
that Demma’s sophisticated and extensive access to
child pornography somehow made him less culpable
than “someone who simply allowed his curiosity to get
the better of him.” We draw the opposite conclusion;
i.e., that an infrequent viewer simply overcome by curiosity should be deemed less culpable than someone
like Demma who accessed child pornography on a daily
basis by the use of complex software.
Another factor that the district court failed to
properly analyze is § 3553(a)(2)(B)’s requirement that
the sentencing court consider the need to provide general deterrence through sentencing. The district court
mentioned this factor only to the extent that it determined that “there are certain types of crimes, this being one of them, for which general deterrence is . . .
more myth than reality.” Because child-pornography
possession is driven by addictive behavior, the court explained, imposing a custodial sentence on Demma
would not affect the behavior of others.
But the district court’s determination that general
deterrence has no particular role in the child-pornography context is contrary to this circuit’s caselaw. As
squarely stated in Camiscione, “[g]eneral deterrence is
crucial in the child pornography context.” 591 F.3d at
834. The court elaborated that “[s]entences inﬂuence
behavior, or so at least Congress thought when in 18
U.S.C. § 3553(a) it made deterrence a statutory

20a
sentencing factor.” Id. (quoting United States v. Goldberg, 491 F.3d 668, 672 (7th Cir. 2007)). Similarly, in
Bistline I, this court rejected the district court’s determination that general deterrence would have “little [if ]
anything to do” with the defendant’s sentence. Bistline
I, 665 F.3d at 767 (alteration in original). Our court has
thus made clear that general deterrence in the childpornography context is not a “myth.” The district
court’s decision to give this factor little weight was
therefore unreasonable.
Along with § 3553(a)(2)(B)’s imperative to “afford
adequate deterrence to criminal conduct” in general,
this factor also requires the sentencing court to consider the need for the sentence to provide speciﬁc deterrence to the individual defendant. The district court
discussed the role of speciﬁc deterrence in Demma’s
case to a point, noting that “speciﬁc deterrence can be
guaranteed in a number of ways, some of which are
overlapping, [including] a custodial sentence as advocated by the government, intensive treatment, or a
combination of the two.” But in opining that Demma
was unlikely to reoffend “as a user of child pornography,” the court improperly focused its inquiry on
whether Demma was likely to physically molest a child
in the future. The court noted that it needed to answer
“one overarching question prior to sentencing to the
extent humanly possible": “whether the Defendant
who comes before it . . . is a latent predator, someone
who is likely or at least a signiﬁcant risk of acting out
by way of a contact offense with minors.” It also noted

21a
that “there is no indication of any contact offenses on
the part of Mr. Demma.”
In United States v. Robinson, 669 F.3d 767 (6th Cir.
2012) (Robinson I), however, this court explained that
“[t]he emphasis should be upon deterring the production, distribution, receipt, or possession of child pornography, and not a prediction of future sexual contact
with children.” Id. at 777; see also Camiscione, 591 F.3d
at 834 (“[I]t is not logical to justify a more lenient sentence on the basis that [the defendant] did not make or
distribute child pornography or molest a child.”). The
crime in this case, as in Robinson, was the possession
of child pornography, not a contact offense with a minor. In making the likelihood of Demma perpetrating
a contact offense the “overarching question” prior to
sentencing, the district court failed to properly weigh
the speciﬁc-deterrence factor.
3. The relevant precedents
Demma attempts to counter the above points by
arguing that several of the cases in which this court
has vacated a short sentence as substantively unreasonable in fact stand for the opposite proposition. He
speciﬁcally cites Bistline I, 665 F.3d 758; Bistline II,
720 F.3d 631; United States v. Christman, 607 F.3d
1110 (6th Cir. 2010); Camiscione, 591 F.3d 823; Robinson I, 669 F.3d 767; Robinson II, 778 F.3d 515; and
United States v. Shrank, 768 Fed.Appx. 512, 515 (6th
Cir. 2019). He argues that “the sentences ultimately
imposed by the district court [in these cases], following

22a
remand, and which were not appealed by the United
States, are not signiﬁcantly different from the one day
sentence imposed [in the present case].”
Those sentences make up no part of the law of this
circuit, however, precisely because we had no ability to
review them. The unreviewed sentences therefore have
little relevance to the question before us here. Nor is
our unpublished opinion in United States v. Prisel, 316
F. App’x 377 (6th Cir. 2008), of much importance in the
present case given that we reviewed the sentence in
Prisel for plain error. See, e.g., Robinson I, 669 F.3d at
779.
Our overall conclusion is that, based on the totality of the circumstances, the district court weighed
some factors under § 3553(a) too heavily and gave insufﬁcient weight to others in determining Demma’s
sentence. This is not to say that some other defendant
possessing far fewer and less offensive images over a
much shorter period of time might justify such an extreme downward variance, but that is not Demma’s
case. As this court noted in United States v. Elmore,
743 F.3d 1068 (6th Cir. 2014), a United States Sentencing Commission report states that “fully 96.6 percent
of ﬁrst-time child-pornography-possession convictions
led to at least some prison time.” Id. at 1076 (emphasis
in original). We ﬁnd no basis in the record for Demma
to not become part of this overwhelming statistic.

23a
III.

CONCLUSION

For all of the reasons set forth above, we VACATE
Demma’s sentence and REMAND the case for resentencing consistent with this opinion.

24a
Br. of Appellee, United States v. Demma,
No. 18-4143 (6th Cir. July 31, 2019)
*

*

*

Military HX: Vet signed up with Army after ﬁnishing undergrad degree in psych (2005 @ WSU) and
did basic infantry training at Ft. Benning; followed by combat training at Ft. Sam Houston; followed by assignment to 4th Brigade of 1st CAV.
Vet reported he was ﬁrst deployed in Nov. 2006 to
Baghdad Iraq where he was assigned for 9 months
to a unit immersed in a Bagdad neighborhood.
There he experienced 368 IEDs over 9 months including 14 days straight of either IED or small
arms attacks.
*

*

*

25a
Transcript of the Continuation
of Sentencing Proceedings,
United States v. Demma,
No. 3:17 cr 62 (S.D. Ohio Dec. 21, 2017)
*

*

*

[8] Q. Did he tell you why he joined the Army after getting his college degree?
A. Yeah. I think – after 911 I think he was really
committed. He told us both that he had a real desire to
help out. He wanted to serve his country. Plus he said
he felt bad for those individuals who had families who
had to go in and serve and would be put in harm’s way.
He really didn’t feel, he felt maybe that if he went in
and took one of their spots, maybe one person wouldn’t
have to go to Iraq or wouldn’t be in a situation where
they would be in harm’s way.
*

*

*

[12] Q. Do you recall phone calls with Andrew
where he talked about friends or comrades being killed
or injured?
A. Yes. During the period of time when I was the
assistant superintendent, I worked at the Board ofﬁce.
One early afternoon, I got a call and it was Andy. He
started crying. He cried for several minutes. When he
ﬁnally [13] composed himself, he told me that they, his
part of his patrol had been under ambush and a sniper
got his, one of his friend’s Taylor, didn’t kill him, but
shot him up through under his armor and Andy was
called to work on him. When he was working on him,

26a
he asked about another friend. I believe his name was
Thrasher. They pointed to him over in the corner and
he’s dead. Andy said – I said, What did you do? He said,
well, your adrenalin. You have a job to do. Your adrenalin was to get his friend Taylor taken care of. Then he
broke down a few more times.
And I said, well, what’s going on now?
He said well, we’re back at our main camp. They
lived pretty much out in the city at these joint security
stations that they had to maintain. He said, we got
back and we were told that we had one hour to grieve.
Then we had to get back out on patrol in the city. He
said, how can you grieve in one hour? We talked.
I got so emotional I had to go out in the parking
lot and ﬁnish my call. But I couldn’t do anything for
him.
Q. I know this is difﬁcult. Did you receive a call
from Andy where he talked about a young girl blowing
herself up?
A. Yes. He called again. He was kind of in dispare.
They had been on patrol. They were in a – they had a
little small convoy. Part of that convoy was a tank.
When they – I don’t know if it was the ofﬁcer in control
said, [14] we need to stop. There was a young lady up
ahead of them; a young girl. Probably in the neighborhood of ten or 12 years old. They could tell she had a
dress on or a gash on that was hiding explosives. That’s
what they thought. She kept on waving them on. The
lieutenant says, no, we can’t. So they would back up a

27a
little bit. They ordered Andy and the other soldiers into
the tank or into the armored vehicles. And he – they
could view him from the tank. He said they knew they
did not want that girl, the enemy or the Iraqi who was
controlling that girl did not want her to get too far out
of radio control because the bomb was radio controlled.
They kept on backing up to the point where they knew
that the people who were controlling the device knew
that they had to do it then. They detonated her. Obviously they weren’t close enough to – they felt the explosion, but it wasn’t enough to injure any of them. But
I remember him talking about – being able to see parts
of her on their vehicles.
And he said, Why, dad? Why do they do this to
their people, their own people?
I didn’t have an answer. I said, That’s what war is
all about, I guess. That wasn’t a good answer but that
was the answer I had.
*

*

*

28a
Transcript of Proceedings,
United States v. Demma, No. 3:17-cr-62
(S.D. Ohio Jan. 25, 2018)
*

*

*

[10] Q. What was your physical situation when
you arrived at Baghdad, where did you stay, where did
you go, issues like that?
A. For the ﬁrst couple of months, we remained on
the large, very large base complex surrounding Bagdad
International Airport, and we were staging daily missions from there to our neighborhood that was about 7
or 8 minutes [11] away. After those 2 months, we occupied an outpost in our neighborhood in Bagdad as part
of the surge plan.
Q. Let me talk a little bit about or ask you a little
bit about the initial deployment. When you would go
out on – did you use the word “mission”?
A.

Yes.

Q.

How long would those missions last?

A.

Anywhere from an hour to 12 or 14 hours.

Q. After the mission was over, did you go back to
the base?
A.
Q.
tacks?
A.

We would go back to our outpost, yes.
Was the outpost secure from most of the atFrom some attacks.

29a
Q. How frequent were the attacks on the base
those ﬁrst 2 months?
A.

Daily.
*

*

*

30a
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION AT DAYTON
UNITED STATES OF AMERICA,
Plaintiff,
Vs.

CASE NO. 3:17-cr-62

ANDREW DEMMA,
Defendant.
TRANSCRIPT OF SENTENCING PROCEEDINGS
PRESIDING:
DATE:

THE HONORABLE WALTER H. RICE

Wednesday, October 3, 2018

APPEARANCES:
For The Plaintiff:
BENJAMIN C. GLASSMAN
United States Attorney
By: Laura I. Clemmens, Esq.
Assistant United States Attorney
200 West Second Street, Suite 600
Dayton, Ohio 45402
(937) 225-2910
Laura.clemmens@usdoj.gov
For The Defendant:
Richard E. Mayhall, Esq.
Commerce Pointe, Suite 120
20 Limestone Street
Springﬁeld, Ohio 45502
(937) 323-4004
Mayhalleﬂackmayhall.com

31a
Also Present:
Charles Steed, U.S. Probation Ofﬁcer
Patrick Kennedy, U.S. Pretrial Services Officer
Court Reporter: Debra Lynn Futrell, CRR
200 West Second Street
Dayton, OH 45402
(937) 512-1511
Debra_Futrell@ohsd.uscourts.gov
Proceedings recorded by mechanical
stenography, transcript produced by computer
[26] THE COURT: These cases are always
difﬁcult because the Court needs to answer one overarching question prior to sentencing to the extent humanly possible. And that is whether the Defendant
who comes before it, before the Court, is a latent predator, someone who is likely or at least a signiﬁcant risk
of acting out by way of a contact offense with minors or
whether the person for whatever reason is a viewer, a
possessor of child pornography, for whatever reason
who is not likely to, graduate is the wrong word but
accelerate his conduct into a contact offense.
This case has been extremely well presented by
the attorneys for both sides. Mr. Mayhall has done an
excellent job. Ms. Clemmens has done her typical thorough job representing very well the people of the community, not as a prosecutor trying to extract the last
pound of ﬂesh, but as one trying to achieve a just result
for all parties, victims, defendant, and the community.
In addition to her professional skills – I could say the
same of Mr. Mayhall – she brings to any case in which

32a
she’s involved an ample dose of reality and compassion
which is always appreciated by the Court.
[27] We’ve had 3 psychologists testify in this case,
each and every one of which the Court has dealt with
in other cases and each and every one of which the
Court has the greatest of respect for.
Let me go through some basic sentencing comments before I get into some more speciﬁc comments.
The charge is possession of child pornography, visual
depictions involving prepubescent minors. This was a
plea of guilty to the sole count in a Bill of Information.
I overruled Mr. Mayhall’s objection pursuant to
2G2.2(a) for a two-level decrease from the Base Offense Level. Given that Mr. Demma had been charged
under Section 2252(a)(4) which according to subsection
B disqualiﬁes him from the two-level decrease that
would otherwise apply in Section 2G2.2(b)(1).
Defendant has spent one day in custody. He’s been
compliant.
The Offense Conduct paragraphs are set forth in
paragraph 17 through 28. The Court, though, has had
a long-standing policy of determining the Base Offense
Level, the Gross such and ﬁnally the Net or Adjusted
Offense Level not by the Offense Conduct paragraphs
but rather on the Statement of Facts agreed to by and
between the government and the Defendant and admitted by the Defendant to be true while under oath at
the time of the taking of the plea.

33a
[28] Of course, anything not objected to in the 12
Offense Conduct paragraphs may be considered by the
Court in its Section 3553(a) analysis.
The Base Offense Level is 18 pursuant to Section
2G2.2.
Plus 2 pursuant to guideline Section 2G2.2(b)(2)
for material involving a prepubescent minor or a minor
who had not attained the age of 12.
Plus 4 pursuant to guideline Section 2G2.2(b)(4)
for visual depictions of sadistic or masochistic conduct.
Plus 2 pursuant to guideline Section 2G2.2(b)(6)
for the use of a computer to access child pornography.
Plus 5 pursuant to guideline Section 2G2.2(b)(7)(D)
for 600 or more images.
The Gross Offense Level is 31.
Minus 2 for acceptance of responsibility.
Minus 1 more for timely notiﬁcation of intent to
plead guilty and full disclosure of role in the offense.
For a Net Offense Level of 28.
Mr. Demma has no prior record, either juvenile or
adult. His Criminal History is I which calls for a no
longer binding now advisory sentencing guideline
range of 6 years, 6 months to 8 years, 1 month.
Putting that aside and examining the other factors of sentencing set forth in subsection 3553(a), we
have a defendant almost 40, served two tours in Iraq

34a
as a combat [29] medic. He spent a total of 5 years I
think plus in the military. His two tours totalled some
2-1/2 years. He did suffer some injuries from a mortar
blast. He has suffered severe depression since age 20.
He’s been addicted to adult pornography since before
his military experience, probably from his late teenage
years. He became interested in child pornography
while in Iraq. There’s no evidence that he involved
himself in viewing child pornography prior to his military service. By the time he returned home in May of
2010, he was viewing child pornography on a daily basis.
Post traumatic stress was diagnosed ﬁrst by Nova
House in August – not ﬁrst diagnosed. Was diagnosed
by Nova House and certainly Dr. Peterson seconds that
by ranking, if I can use that expression, Mr. Demma’s
PTSD anywhere from moderate to severe.
Mr. Demma describes himself as a moderate
drinker, previously utilized cocaine on an occasional
basis. Does have a Bachelor’s degree and several years
of medical school. He is an EMT. He’s working presently and has for quite a while with Home Depot. He
worked previously as a mental health technician with
mental health services of Clark and Madison County.
He has worked in the past at Oesterlen Home working
with young children. He is unable now or even on an
installment plan in the future to defray either the costs
of a ﬁne in addition to the $100 special [30] assessment
or the $5,000 assessment to the Victims of Trafﬁcking
Act. That’s not only because of his inability to satisfy

35a
such, but because he will have some $45,000 in restitution.
Everything Ms. Clemmens said about the seriousness of this offense the Court agrees with. I don’t sense
any disagreement by Mr. Mayhall or Mr. Demma either. This is an exploitive offense. It allows people who
produce and distribute this to ﬁnd a market of viewers
and to that extent, the viewer, perhaps unintentionally,
is aiding and abetting the production and distribution
of this material.
It’s a never-ending offense. It’s not like a house
burglary or a car theft which is invasive enough, but
it’s an offense that has no ﬁnite ending because the victim of the crime never knows when her pictures will be
circulated on the Internet by people who are, quite
frankly, if I may use a layman’s mental health diagnosis, sick people.
In this case, Mr. Demma possessed images that
were certainly if not the highest the Court has ever
seen in a possession of child pornography, certainly not
the lowest either.
The Court has considered, and I’ll expand upon
this, the issue of the safety of the community. It’s considered the issue of fair punishment, punishment that
both promotes respect for the law while at the same
time not minimizing or [31] trivializing the offense.
The Court has considered the need for speciﬁc
and general deterrence. The Court has considered
whether there’s anything this Court can do to help the

36a
Defendant get his life back on the right track. The
Court has considered the necessity of the forfeiture of
ﬁve items spelled out in the Plea Agreement. The
Court has considered the need for Mr. Demma to pay
the sum of $5,000 for each of the nine victims in this
case.
And ﬁnally, as a wrap-up to these very general and
self-serving statements, the Court has considered the
need to avoid unreasonable disparities between the
sentence to be imposed on Mr. Demma and others similarly situated who have committed similar crimes in
the past.
Now, I’m going to expand on each of these items.
But let me make two comments ﬁrst. More than two
comments. All sentences are different because all sentences are required to take into account the differences
between different cases. Mr. Demma, because of his experiences, is to be treated differently than someone
who simply allowed his curiosity to get the better of
him and President Trump’s 400-pound man sitting on
the edge of his bed who was surﬁng the Internet one
night and allowed his curiosity to get the better of him.
Secondly – and Mr. Demma will be treated differently. [32] Whether that means a higher sentence
or a lower sentence I’ll get to shortly but he’s a different person than others who have committed similar
crimes. And indeed if we were not to take into account
the individual characteristics of a given defendant
when creating a sentence that is sufﬁcient but no more
than needed to carry out the purposes of sentencing,

37a
then we simply are abrogating or nullifying Title 18,
United States Code, Section 3553(a).
The Court is fully aware of the need to consider
general and speciﬁc deterrence. Deterrence, speciﬁc
deterrence can be guaranteed in a number of ways,
some of which are overlapping, a custodial sentence as
advocated by the government, intensive treatment, or
a combination of the two, and by other means that
simply do not come immediately to the Court’s mind.
As far as general deterrence is concerned, people
who commit these type of offenses have mental health
issues. Doesn’t mean they’re psychotic. Doesn’t mean
they’re not capable of facing and defending a criminal
indictment or Bill of Information, but they have issues
that have to be dealt with. While I guess it is possible
– I don’t guess. I’m certain it’s possible to will one’s self
to never watch pornography, adult or child pornography, again much as it is possible to put down your last
drink and never drink again or throw away that pack
of cigarettes with maybe ﬁve to ten [33] cigarettes left
inside and vow never to smoke again, it’s a lot easier
said than done.
So what I’m trying to say is while the Court recognizes the need to consider general deterrence, there are
certain types of crimes, this being one of them, for
which general deterrence is, I believe, more myth than
reality.
The last general statement I would like to make
is this. The only point of disagreement that I ﬁnd I
have, and it’s a very respectful disagreement with

38a
government’s counsel, is her statement that there are
no circumstances, real, hypothetical or barely conceivable, that might exist that would justify the type of variance advocated by defense counsel. I’m not saying at
this point that this is one of those cases but I think you
have to assume that Congress acts in its inﬁnite wisdom and if there were no set of circumstances, real, hypothetical or barely conceivable that would justify a
noncustodial sentence, then Congress would have required either a minimum mandatory sentence or some
period of custody beyond a one-day or a time-served
sentence.
Now, having made those very general statements,
let’s go into some detail. We had 3 psychologists in this
case: Dr. David Tennenbaum, a Ph.D. We had Dr. David
Roush and Dr. I believe Frederick Peterson, Psy.D.s. Dr.
Peterson and Dr. Roush conferred with each other and
are in effect [34] jointly treating Mr. Demma and have
promised to confer on perhaps a quarterly basis to
make certain that all that should be done for Mr.
Demma, whether now or after a custodial sentence, is
being done.
Ms. Clemmens’ comment about if Dr. Tennenbaum’s cause and effect were accurate, then we would
have persons coming home from combat zones committing similar types of offenses. I see her argument. I
think it’s not an invalid argument.
Yet, number 1, a person’s, I personally believe that
there’s a cause for every mental health diagnosis,
whether it’s a chemical imbalance or a ﬁnite event or

39a
serious events. While I don’t know the quantity, the
numbers, the percentage of persons coming home from
Iraq having seen combat who have become addicted to
pornography, no way to know that, what I am certain
of is that very few people come home from a combat
situation without suffering lasting damage. Some of it
causes people to wind up in a criminal court. There’s
no question about that. Some of it people are at least
superﬁcially seen as having gone on with their lives
and not suffered any results. Yet, any reading of any
kind of literature involving PTSD I believe would tell
us that even those who have no outward sequelae of
having been in a combat zone, even those who have not
wound up in a criminal court, have suffered a lot of the
symptoms of PTSD, whether it’s isolation, whether it’s
an apathy toward life, [35] whether it’s depression or
not.
This Court has fortunately never been in combat
and I quite frankly can’t imagine how I would react to
being in that type of situation. But I simply don’t believe – I’m not taking judicial notice of this; I’m sharing
my personal opinion. I simply don’t believe one can go
through a protracted combat experience and not suffer
some consequences unless that person goes into combat detached, introverted and apathic to begin with.
I don’t want to spend a lot of time going through
the opinions of the psychologists. Sufﬁce it to say that
Dr. Tennenbaum ﬁnds a direct correlation between Mr.
Demma’s experiences and his addiction to child pornography.

40a
Dr. Peterson doesn’t agree in so many words but
there’s very little difference between Dr. Peterson and
Dr. Tennenbaum. They certainly see a cause and effect
relationship between his combat service and his interest in child pornography.
Dr. Roush disagrees. Dr. Roush would tell us, as he
has, that the combat experience, while it certainly has
increased the stress which increases the strength of
the addiction at certain times to child pornography,
while it certainly has exacerbated the interest in child
pornography, that that experience in combat was not a
direct causative factor in the interest in child pornography.
Dr. Roush blames the interest in child pornography, [36] quite frankly, on Mr. Demma’s interest in
child pornography having graduated from an interest
in adult pornography that had existed for many years.
Dr. Roush’s beliefs that he’s testiﬁed to many times in
this Court is that one who views adult pornography
gradually becomes not immune but jaded or satiated
with it. The person no longer gets the sexual rush that
he or she previously did and therefore graduates to different forms of pornography of which child pornography is one of those subsets.
Without going into a lot of detail because I don’t
think I need to revisit that here, Mr. Demma had a
number of experiences in combat, some of which were
not unusual for people in combat situations. His ﬁrst
tour of Iraq I think lasted a year and a half. He was
constantly in harm’s way. He was subject to IEDs on a

41a
frequent basis, if not their detonation then at least the
possibility of such but he was also exposed to situations involving young children that hopefully are unusual for people in combat. Situations that made, as
they would anyone, made him have memories that, try
as he might, he simply could not simply slough off and
get on with his life.
He had experiences with young children, children,
teenagers or less in terms of age, and his involvement with those children and with the deaths of those
children that, quite frankly, have made an indelible
impression on him, [40] experiences that the stereotypical 400-pound man sitting on, the edge of his bed
might not have had.
Dr. Roush uses a molester and a Rapist Comparison Test which he candidly admits is not predictive. It’s
simply used to corroborate other evidence. On the Molester Comparison Test he ranks Mr. Demma as having
thinking and behavioral attributes moderately similar
to other adult male sexual offenders who use manipulation with their victims.
As far as the Rapist Comparison Test, Mr.
Demma’s attributes are not similar to other adult male
sexual offenders who use force with their victims. He
feels at the time of the initial evaluation of Mr. Demma,
that he, Mr. Demma, lacked the acknowledgment of the
excitement that he derived from child pornography
and/or the planning and the strategy to view same.
It’s important to note that unlike many who appear in this Court and are ordered by the Court to

42a
receive a mental health evaluation, this man sought
out Dr. Roush. I could be off by a few months but by 15
months prior to charges being ﬁled. Admittedly, after
his arrest but some 15 months before charges being
ﬁled, to try to get to the bottom of this; why he was
attracted to child pornography.
And he was, prior to the charge, involved with sex
offender counseling with Dr. Roush as I recall. Dr.
Roush at one point said: Why don’t you wait until your
legal [38] situation is resolved before you get involved
in group?
Mr. Demma insisted that he wanted to begin group
as quickly as is possible in order that he might get to
the bottom of his particular situation. So while Mr.
Demma may well not have had the insight to admit in
Dr. Roush’s viewpoint the stimulation he got from child
pornography and the strategies leading up to his viewing of child pornography, he did have enough insight to
know that he had problems that had to be dealt with.
Dr. Roush said that Iraq didn’t cause his interest
in child pornography. As I’ve said, he was addicted to
the adult version pre-Iraq but stress in Iraq perpetuated and escalated the interest in child pornography that he ﬁrst viewed while in Iraq. He rates Mr.
Demma’s participation as above satisfactory. He doesn’t,
Dr. Roush, make prognoses but there’s nothing in his
report or his testimony that would indicate any concern about Mr. Demma’s propensity to re-offend either
viewing child pornography or acting out against children.

43a
Dr. Tennenbaum examined on ﬁve occasions Mr.
Demma post charge but prior to sentencing. He quoted
Dr. Peterson in the agreement on the PTSD diagnosis.
He felt, Dr. Tennenbaum did, that the initiation of
viewing child pornography was a direct result of experiencing the ravages of war on children and on children
being killed.
[39] He felt, Dr. Tennenbaum did, that pornography was a coping mechanism to try to deﬂect the pain
from what he saw in Iraq by the lesser harm, if I can
use that expression, of seeing children victimized by
being the subject of child pornography.
From a psychological perspective he, Dr. Tennenbaum, felt there was a direct link between his military
experience and his introduction to child pornography
and his escalating addiction. I agree with Ms. Clemmens that this is not the typical cause and effect that
we hear in court. Yet, Dr. Peterson who deals with
treating veterans who have come back from war and
who are suffering from PTSD was at the time of his
testimony co-authoring a book about six similar cases
that he and his co-author have become aware of. So
while it’s an unusual cause and effect, I don’t feel, respectfully, that it is a stretch that it is an inconceivable
cause and effect.
Dr. Tennenbaum says that Mr. Demma needs intensive outpatient or residential PTSD care for his unremitting post traumatic thoughts and behaviors. He’s
been a severely depressed adult with a multitude of
emotional disabilities. He is undergoing a severe level

44a
of depression which I believe the doctor has testiﬁed is
easing a bit. He ruminates unproductively. He’s an
emotionally damaged adult based on what he has seen.
He feels his decision was [40] exacerbated by his tours
in Iraq. The PTSD interfaces with that experience. The
depression interferes with his, Mr. Demma’s ability to
understand his experiences and he used child pornography to bring to mind the pain, the victimizing of children that he witnessed in Iraq. He simply is incapable,
as of the time Dr. Tennenbaum examined him, of coping with his own experience and trauma.
Dr. Tennenbaum feels that the use of child pornography was not for sexual gratiﬁcation but to see and to
experience again the pain he experienced regarding
children in Iraq. The experience was the direct cause
of his involvement with child pornography. He simply
is incapable of moving on.
Dr. Tennenbaum said that he had – not Dr. Tennenbaum but Mr. Demma, a very low risk for recidivism of looking at child pornography. He felt that the
literature revealed that 96 percent of child pornography viewers were not at risk for contact offenses.
Again, he used the child pornography to punish himself into reexperiencing the suffering he had.
Dr. Tennenbaum was asked the effect that prison
would have on Mr. Demma. He said that Mr. Demma
would use the prison experience to further punish himself for matters that he observed and participated in
while in combat.

45a
Dr. Roush and Dr. Peterson at the Court’s request
[41] consulted with each other and jointly testiﬁed on
May 1st of this year. Dr. Roush is treating Mr. Demma
for sex offender treatment. His prognosis is good in Dr.
Roush’s opinion with regard to repeating the offense of
viewing child pornography. Dr. Roush indicated on May
1st that he needed about a year and a half more of
treatment.
Dr. Peterson indicated that the PTSD involved a
recapitulation of some trauma through dysfunctional
coping which the dysfunctional coping being the using
of child pornography. He’s fully participating in therapy. He’s getting better. The goal is not to cause Mr.
Demma to forget his experiences which regrettably
will never happen but the goal is not to allow the PTSD
to direct or control Mr. Demma’s life but rather to put
control of Mr. Demma’s life back with Mr. Demma
where it belongs.
Dr. Peterson said that the wartime experiences
contributed to the continuation of his addiction to child
pornography. Very low probability, in Dr. Peterson’s
view, of viewing or acting out. Both he and Dr. Roush
believe that while interruption of treatment would not
destroy the treatment, interruption of treatment by
prison would not destroy the beneﬁts of treatment already rendered. It would simply slow down the process.
The Defendant apparently was a contributing member of the military, earned many decorations, medals,
badges, [42] citations, campaign ribbons and the like.

46a
Having computed the Sentencing Guidelines and
having found that they are 78 to 97 months gives me
the opportunity to express my strong disagreement
with the guidelines particularly with regard to possessors of child pornography.
First of all, federal court is the place where, I’m
going to use the word serious child pornographers are
brought. Serious in the terms of the kinds of images
possessed and the amount of images possessed. Just
about every person who comes to federal court for
possession of child pornography almost automatically
earns all of the enhancements to the Base Offense
Level. While there’s nothing wrong with that, the problem is, it becomes extremely difﬁcult – and again I
have no ax to grind with 400-pound men who sit on the
edge of a bed, but it makes it impossible to distinguish
between that type of person and an unusual person,
unusual because of the experiences that have either
caused the addiction to child pornography or where
those experiences have accelerated it, escalated it, and
made it more difﬁcult to recover from.
So the guidelines, while certainly they’re a starting point and they do achieve a certain amount of consistency, in my opinion are artiﬁcially high because
everyone secures most of the enhancements and secondly makes it difﬁcult to distinguish between offender A and offender B.
[43] Secondly, while the crime is very, very, very
serious, this gentleman, if the psychologists are to be
believed, is almost no danger to the public now or in

47a
the future if he continues his therapy, is almost no danger to the community to re-offend as a user of child pornography or as someone who acts out against children.
This Defendant having sought out treatment on
his own months before a charge was ﬁled and having
in effect told the therapist that he wanted to participate in group therapy even though the doctor himself
said “you ought to wait till your case is over,” this Defendant having – I don’t want to underemphasize this,
on the other hand I don’t want to drown this record in
clichés. This is a man who voluntarily joined the service as a combat medic where he could be guaranteed
to see the worst of combat and who has wound up in
criminal court as an unintended consequence of that I
think deserves some consideration that the average
possessor of child pornography hasn’t earned.
His rehabilitation is well on its way. He’s going to
continue with Dr. Roush for another year. He’ll then
pick up with Dr. Peterson. I’m going to order that the
VA PTSD inpatient program be seriously considered
and if not followed, that the Court be advised as to why.
There’s no danger to the safety of the community. I believe frankly based on what the psychologists have told
me, that a prison [44] term – which this kind of offense
warrants; I don’t disagree with that – would be more
destructive than helpful.
I ﬁrmly believe that, let me put it this way. I can
fully understand the need for a custodial sentence in
this type of offense generally. I can fully understand
the fact that a noncustodial sentence may send the

48a
wrong message out to others, although quite frankly
whether there’s a custodial sentence or not is not going
to impact upon others’ addiction in this area. But, quite
frankly, in this Court’s opinion the interest of safety,
having considered that and considered the public at no
danger to its safety from this Defendant, having considered the fact that prevention is already being aggressively pursued by this Defendant, the fact that he
is working as hard as he can or at least as I can conceive on his rehabilitation, and quite frankly the fact
that his being in federal court is the result of his voluntary service to his community and his country, in
this unique case outweighs the need for a custodial
sentence which I believe would be contraindicated
based on the testimony certainly of Dr. Tennenbaum.
Mayhall, if you and your client would be good
enough to come forward.
The following is a sentence that the Court believes
to be sufﬁcient but no more than needed to carry out
the [45] purposes of sentencing.
The Defendant is remanded to the custody of the
Attorney General of the United States, the Bureau of
Prisons, for a period of one day. He is to pay on an immediate basis the $100 special assessment to the victims’ compensation fund. No additional ﬁne is required
for reasons that the Court has already given.
Restitution will be made to each of the nine victims in the amount of $5,000 for a total of $45,000. One
additional reason for not imposing a ﬁne beyond the
special assessment, in addition to restitution, is the

49a
fact that community service will play a part of the Defendant’s supervision. Needless to say, the $5,000 special assessment based on the Victims of Trafﬁcking Act
will not be imposed on this Defendant due to his inability, the need to make restitution, and the like.
There are ﬁve items to be forfeit. They’re spelled
out in the Plea Agreement.
1. Netgear Wireless-N USB Adapter, serial number 1WB29CB 0731. These are all capital letters. Why
don’t I simply do it this way. Rather than read an endless series of numbers into the record, I simply will put
in the judgment entry the ﬁve items stated in the Plea
Agreement that must be forfeit.
Supervised release will be ordered for a ten-year
[46] period subject to conditions that I will mention.
If after the 5-year mark, Mr. Steed, in the opinion
of the department, probation department and the mental health providers, if the opinion is that this Defendant no longer needs the service of further supervision,
then my successor should be contacted with a motion
to terminate supervised release early.
The following are the conditions of supervision
and some of what I’m about to say is duplicative.
First. He is to follow all of the rules and regulations of the probation department to which he is to report not later than 24 hours after ﬁnal disposition
today or tomorrow.

50a
He is to commit no further crimes, local, state or
federal.
He is neither to own, possess, use or trafﬁc in any
controlled substances, ﬁrearms, or other dangerous
weapons.
He is to maintain his employment or seek other
employment, not to leave his present employment
without a new position involved.
Normally I give as an alternative for seeking and
maintaining employment that the Defendant avail
himself of job training. This Defendant has too many
talents based on education and accomplishments that
he doesn’t have to be ordered to participate in job training if in fact he feels [47] the need.
He is to contribute 100 hours of community service
on a schedule and with an agency to be determined by
and between himself and the probation department
within the ﬁrst two years of supervision if a suitable
placement can be found.
He is to subject himself to drug testing and treatment. With regard to testing at least during the ﬁrst,
once during the ﬁrst 15 days of supervision and no
fewer than twice thereafter.
If treatment is necessary, inpatient or outpatient,
at the recommendation of the probation ofﬁcer.
He is liable for a $25 a month co-payment for
treatment if ﬁnancially able to defray that cost.

51a
I don’t think there is a signiﬁcant probability of
drug treatment so I would in addition to the test during the ﬁrst 15 days of supervision, the Court would
have no objection to further tests being spaced out as
far as the probation ofﬁcer determines is proper.
The Defendant is to receive a mental health assessment and if needed treatment. Now, he’s already
being treated for PTSD and for a major depressive order. I’m talking about other issues for which he may
not be presently treated for. I would recommend to the
probation department that the reports of Dr. Roush
and the testimony of Dr. Peterson and the report of Dr.
Tennenbaum be given the mental health [48] assessor
to see if there’s any additional mental health treatment necessary. My feeling is that there may be unnecessary redundancy or duplication. I simply don’t want
there to be any issue that falls untreated between the
cracks. To the extent he receives treatment from an additional mental health provider, he is liable for the $25
a month co-pay if ﬁnancially feasible.
He is to cooperate with all of the requirements of
the Sex Offender Rehabilitation and Notiﬁcation Act
in whatever state he works, lives, or attends schooling.
He is, without question, to complete his sex offender treatment with Dr. Roush. He is to continue and
step up his interaction with Dr. Peterson as soon as he
and Dr. Roush in concert believes that the time is
proper. And he is to seriously consider, once his treatment with Dr. Roush has been completed, inpatient at

52a
the Fort Thomas veterans administration clinic or hospital specializing in PTSD.
He is to cooperate in the search of his person, property, home and the like by any law enforcement ofﬁcer
or probation ofﬁcer.
He is to cooperate in the collection of DNA.
He is to cooperate in the taking of various polygraph examinations which is a standard requirement
and he is to comply with all ﬁve conditions set forth
in pages 3 and 4 of the attached supplement to the
Presentence Report which, [49] Mr. Mayhall, I would
be delighted to read into the record absent a stipulation from you that that is not necessary given that
you’ve reviewed these with him prior to today.
MR. MAYHALL: I have reviewed them, your
Honor, so reading them in the record is not necessary.
THE COURT:
would you agree?

All right. Ms. Clemmens,

MS. CLEMMENS:

Yes, your Honor.

THE COURT: All right. Mr. Mayhall, are
there any procedural or substantive objections to this
Court’s disposition?
MR. MAYHAL:

No, your Honor, thank you.

THE COURT: All right. Ms. Clemmens, if
the government wishes, I certainly would not be offended if you feel the Court’s disposition is either procedurally or substantively unreasonable?

53a
MS. CLEMMENS: Your Honor, respectfully,
for the record, we would lodge an objection to the sentence on the grounds of substantive reasonableness.
THE COURT:

Thank you.

The Court will make the following recommendation: That the one day of conﬁnement be satisﬁed by
the day on which Mr. Demma was processed by the
United States Marshals.
Mr. Demma, I need to explain to you what we call
your right of appeal. Anytime within 14 days from the
day the [50] ﬁnal paperwork is ﬁled which, because of
some personnel issues, may be a week or two weeks
from now, you have the right to appeal any action of
this Court with which you disagree to a higher court
known as the Court of Appeals. You’re entitled to the
services of an attorney to make this appeal. If you don’t
have an attorney and would like to have one but feel
you can’t afford the price of an attorney, the Court will
appoint one for you at no cost. This attorney will see to
it both that your appeal is ﬁled, that all of the necessary court papers are prepared for you and that your
appeal is fully argued. Do you understand, sir, what
I’ve said?
THE DEFENDANT:

Yes, your Honor.

THE COURT: Let the record show in this
case, CR-3-17-62, United States of America versus Demme,
that sentence has been imposed, the Defendant orally
explained his right of appeal, and he has indicated an
understanding of it.

54a
Mr. Mayhall, I don’t know whom else to look to
for this last request other than yourself but I would
very much appreciate on about an every four-month
basis, to get a report from Dr. Roush and Dr. Peterson
– I’ll write them this as well – with of course a copy to
me, to you, and to Ms. Clemmens setting forth Mr.
Demma’s progress and further treatment considerations. If I could ask you to simply put [51] that up on
your followup calendar, I would appreciate it.
MR. MAYHALL:

Yes, sir.

THE COURT: All right. Ms. Clemmens, is
there anything further?
MS. CLEMMENS: Just an administrative
matter, your Honor. I believe the agreed orders of restitution, the originals were given to the Court some
time ago. I just want to conﬁrm that the Court will be
ﬁling those or let us know if we need to do anything.
THE COURT: I’ve signed them but haven’t
ﬁled them. Just a moment. Rather than watch me shufﬂe through paper, I believe they have been ﬁled. If they
haven’t, they will be by close of business tomorrow.
MS. CLEMMENS:
Then nothing further.
THE COURT:
thing further?

Thank you. Mr. Mayhall, any-

MR. MAYHALL:
THE COURT:
any questions?

Thank you, your Honor.

No, sir, thank you.

You’re welcome. Mr. Demma,

55a
THE DEFENDANT:
THE COURT:

No, sir.

I wish you well, sir. We are in

recess.
(Proceedings concluded 4:13 p.m.)

CERTIFICATE
I, Debra Lynn Futrell, Federal Ofﬁcial Court Reporter, in and for the United States District Court for
the Southern District of Ohio, Western Division at
Dayton, do hereby certify that the foregoing pages constitute a true and correct transcript of the stenographically reported proceedings held in the above-entitled
matter, on the date indicated, to the best of my ability
and knowledge, transcribed by me.
s/Debra Lynn Futrell,
Debra Lynn Futrell
Federal Ofﬁcial Court Reporter

56a
18 U.S. Code § 3553. Imposition of a sentence
(a) Factors To Be Considered in Imposing a
Sentence.—The court shall impose a sentence sufﬁcient, but not greater than necessary, to comply with
the purposes set forth in paragraph (2) of this subsection. The court, in determining the particular sentence
to be imposed, shall consider—
(1) the nature and circumstances of the offense and
the history and characteristics of the defendant;
(2)

the need for the sentence imposed—

(A) to reﬂect the seriousness of the offense, to promote respect for the law, and to provide just punishment for the offense;
(B) to afford adequate deterrence to criminal conduct;
(C) to protect the public from further crimes of the
defendant; and
(D) to provide the defendant with needed educational or vocational training, medical care, or other correctional treatment in the most effective manner;
(3)

the kinds of sentences available;

(4) the kinds of sentence and the sentencing range
established for—
(A) the applicable category of offense committed by
the applicable category of defendant as set forth in the
guidelines—

57a
(i) issued by the Sentencing Commission pursuant to
section 994(a)(1) of title 28, United States Code, subject to any amendments made to such guidelines by act
of Congress (regardless of whether such amendments
have yet to be incorporated by the Sentencing Commission into amendments issued under section 994(p) of
title 28); and
(ii) that, except as provided in section 3742(g), are in
effect on the date the defendant is sentenced; or
(B) in the case of a violation of probation or supervised release, the applicable guidelines or policy statements issued by the Sentencing Commission pursuant
to section 994(a)(3) of title 28, United States Code, taking into account any amendments made to such guidelines or policy statements by act of Congress
(regardless of whether such amendments have yet to
be incorporated by the Sentencing Commission into
amendments issued under section 994(p) of title 28);
(5)

any pertinent policy statement—

(A) issued by the Sentencing Commission pursuant
to section 994(a)(2) of title 28, United States Code, subject to any amendments made to such policy statement
by act of Congress (regardless of whether such amendments have yet to be incorporated by the Sentencing
Commission into amendments issued under section
994(p) of title 28); and
(B) that, except as provided in section 3742(g), is in
effect on the date the defendant is sentenced.

58a
(6) the need to avoid unwarranted sentence disparities among defendants with similar records who have
been found guilty of similar conduct; and
(7) the need to provide restitution to any victims of
the offense.
*

*

*

